HHS/OIG-Audit--"Review of Recharge Center Controls at the University
of California, San Francisco, (A-09-95-04002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Recharge Center Controls at the University of California,
San Francisco," (A-09-95-04002)
November 27, 1995
Complete Text of Report is available in PDF format
(197 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report discloses that although the University of California, San
Francisco's (UCSF) policies were generally consistent with OMB Circular A-21,
UCSF did not adequately control and monitor recharge centers to ensure compliance.
Specifically, UCSF's Budget and Financial Analysis Office did not provide adequate
oversight. As a result, of the eight centers selected for review: (1) eight
used unapproved billing rates; (2) six did not submit appropriate rate proposals,
and (3) once charged differential rates to users.